        Special Inspector General for Afghanistan Reconstruction




SIGAR
        Testimony
        Before the Senate Caucus on International
        Narcotics Control




        Future U.S. Counternarcotics
        Efforts in Afghanistan




        Statement of John F. Sopko,
        Special Inspector General
         for Afghanistan Reconstruction
        January 15, 2014
Chairman Feinstein, Co-Chairman Grassley, and members of the Senate Caucus on International
Narcotics Control,
I appreciate this opportunity to discuss the perilous state of the U.S. counternarcotics effort in
Afghanistan. On my last trip to Afghanistan, I met with U.S., Afghan, and international officials
involved in implementing and evaluating counternarcotics programs. In the opinion of almost
everyone I spoke with, the situation in Afghanistan is dire with little prospect for improvement in
2014 or beyond. Afghan farmers are growing more opium poppies today than at any time in their
modern history. The UN Office of Drugs and Crime (UNODC) estimates the value of opium plus its
heroin and morphine derivatives produced by Afghanistan at nearly $3 billion—or the equivalent of
about 15 percent of Afghanistan’s Gross Domestic Product (GDP)—in 2013. 1 This was a
substantial increase over 2012 when the value of Afghan opiates totaled about $2 billion and
equaled about 11% of Afghanistan’s GDP. 2
The narcotics trade is poisoning the Afghan financial sector and fueling a growing illicit economy.
This, in turn, is undermining the Afghan state’s legitimacy by stoking corruption, nourishing
criminal networks, and providing significant financial support to the Taliban and other insurgent
groups. There are already signs that elements within the Afghan National Security Forces are
reaching arrangements with rural communities to allow opium poppy cultivation, or even
encouraging production, as a way of building local patronage networks and to establish rent
seeking opportunities. 3
In sum, the expanding cultivation and trafficking of drugs is one of the most significant factors
putting the entire U.S. and international donor investment in the reconstruction of Afghanistan at
risk. All of the fragile gains we have made over the last twelve years on women’s issues, health,
education, rule of law, and governance are now, more than ever, in jeopardy of being wiped out by
the narcotics trade which not only supports the insurgency, but also feeds organized crime and
corruption.
Meanwhile, the United States and other western donors assisting Afghanistan have, by and large,
made counternarcotics programming a lower strategic priority at the same time that the 2014
drawdown of U.S. and coalition forces increases the security risks in the country.
We must also not overlook the reality that the narcotics trade poses dangers far beyond
Afghanistan’s borders. As much as 90% of the world’s global opium supply comes from the
country’s poppy fields. Opiates originating in Afghanistan find their way to every corner of the
globe, including Canada and, to a limited extent, the United States.4 In the process, they foster
global drug addiction and international crime.
My statement today will draw on the most current opium cultivation, production, and trafficking
assessments as well as my recent discussions in Afghanistan and elsewhere, and SIGAR’s
completed and ongoing audits and investigations.




1 United Nations Office for Drugs and Crime (UNODC), Afghanistan Opium Survey 2013, December 2013.
2   United Nations Office for Drugs and Crime (UNODC), Afghanistan Opium Survey 2012, May 2013.
3 David Mansfield and Paul Fishstein, Afghanistan Research and Evaluation Unit, Eyes Wide Shut: Counter-Narcotics
in Transition, September 2013.
4   The DEA reports that only about 4% of the heroin found in American cities is of Afghan origin.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                                    Page 2
Opium Cultivation and Production in Afghanistan is at a Record High
Since 2002, the United States has spent at least $7 billion on a wide variety of programs to
reduce poppy cultivation, prevent narcotics production, treat drug addiction, and improve the
criminal justice system to combat drug trafficking. 5 The United States has provided another $3
billion for agriculture and stabilization programs, which under the current U.S. strategy are
considered an important part of the counternarcotics effort. These funds do not include the wider
state-building effort aimed at increasing security, improving governance, and promoting economic
growth—all of which are required to achieve enduring reductions in opium production.
Despite this mammoth investment, more land in Afghanistan is under poppy cultivation today than
it was when the United States overthrew the Taliban in 2002. According to the latest UNODC
report, poppy cultivation reached a record high of 209,000 hectares in 2013. 6 That is equivalent
to more than 800 square miles—more than twice the size of all the boroughs of New York City, or
12 times the size of the District of Columbia—planted solid with opium poppies. 7 Since the U.S.
toppled the Taliban more than a decade ago, the land area planted in opium poppies has nearly
tripled from the 74,000 hectares reported in 2002. 8




Opium remains Afghanistan’s biggest cash crop and major income earner. According to UNODC,
Afghanistan will likely produce a total of 5,500 tons of opium in 2013, a staggering 49% increase
over the 2012 production of 3,700 tons. 9



5 Combined funding for State’s International Narcotics Control and Law Enforcement (INCLE), DOD’s Drug Interdiction

& Counter-Drug Activities (DOD CN), and the Drug Enforcement Agency totals $6.9 billion. See SIGAR’s Quarterly
Report to the United States Congress, Oct 30, 2013, for details on these funds.
6United Nations Office on Drugs and Crime (UNODC), Afghanistan Opium Survey 2013, Summary findings, November
2013.
7   209,000 ha = 807 square miles; the District of Columbia = 68 square miles.
8United Nations Office on Drugs and Crime (UNODC), Afghanistan Opium Survey 2013, Summary findings, November
2013.
9United Nations Office on Drugs and Crime (UNODC), Afghanistan Opium Survey 2013, Summary findings, November
2013; UNODC, Afghanistan Opium Survey 2012, May 2013.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                                    Page 3
The latest data indicate that the export value of opium and its derivatives, such as heroin and
morphine, increased by more than 30% to almost $3 billion in 2013. 10 Any contraction of the
Afghan economy resulting from the U.S. troop drawdown and reduction in international assistance
could result in the opium trade accounting for an even greater slice of the Afghan economy.
As many U.S. and international donor officials and experts have advised me, one of the greatest
risks facing Afghanistan is that the narcotics traffickers and other criminal networks will expand
their influence, filling a power vacuum in the areas where the Afghan government is weak. Some
analysts see a danger that as these groups become more powerful, they will subsume other
economic activities—licit farming, small business, and mining development—into their illicit
networks, further undermining government authority.
In its latest Report on Progress toward Security and Stability in Afghanistan, the Department of
Defense (DOD) acknowledged that “the narcotics market in Afghanistan is large and insurgent
penetration of the market is extensive and expanding.” Consequently, despite some large seizures
and high profile arrests “overall insurgent funding in 2012 remained largely unchanged from
previous years.” 11 U.S. and international officials estimate that the Taliban and other insurgent
groups earn between $100 million and $400 million a year from a combination of illegal activities,
including drug trafficking, extortion, taxation, kidnapping for ransom, and smuggling of natural
resources. They believe that more than a third of the Taliban’s income comes from opium. 12 It is
widely thought that every drug organization supports or works with insurgents in Afghanistan. I
have been told that these same groups are also closely linked with corrupt government officials,
as they look to facilitate the transportation of drugs through territories controlled by different
political groups.
Opium cultivation and insecurity go hand in hand. About 89% of total poppy cultivation this year
occurred in Afghanistan’s southern and western regions, where insurgents and criminal networks
are strongest.

10   UNODC, Afghanistan Opium Survey 2013, December 2013.
11   Department of Defense, Report on Progress Toward Security and Stability in Afghanistan, November 2013, p 94.
12United Nations Security Council, “First report of the Analytical Support and Sanctions Implementation Monitoring
Team submitted pursuant to resolution 1988 (2011) concerning Taliban and associated individuals and entities,”
March 30, 2012.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                                      Page 4
In 2013, an alarming 48% of the poppy fields were located in Helmand Province, a key focus of
the U.S counterinsurgency effort. From 2012 to 2013, poppy cultivation in Helmand expanded by
34% from 75,176 hectares to 100,693 hectares. 13 Further increases occurred in Kandahar,
another province where significant counterinsurgency and development investments have been
made. Over the last twelve months, poppy cultivation expanded from 24,341 hectares to 28,335
hectares. 14 Perhaps of even greater concern is the dramatic rise in cultivation in Nangarhar. This
is a province where the U.S. government has made significant investments since 2002 and that
was once considered ‘a model province’ from both counterinsurgency and counternarcotics
perspectives. Here cultivation rose from 3,151 hectares in 2012 to 15,719 hectares in 2013; 15
quite a contrasting picture from 2008 when it was declared ‘poppy free’ by UNODC.
UNODC suggested that the political uncertainty resulting from the withdrawal of international
troops and the upcoming 2014 presidential elections may have caused farmers to turn to the

13United Nations Office on Drugs and Crime (UNODC), Afghanistan Opium Survey 2013, Summary findings,
November 2013.
14   Ibid
15   Ibid

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                               Page 5
country’s principal cash crop. 16 If this is the case, it does not bode well for Afghanistan and the
region after the transition unless more is done to integrate counternarcotics efforts into the U.S.
and international development plans post-2014.


The United States Has Pursued Various Approaches to Counternarcotics
Since 2002, the U.S. counternarcotics effort has evolved from one that emphasized eradicating
poppy fields and interdicting drugs, to one more closely aligned with the overall U.S.
counterinsurgency strategy. In 2010, the United States adopted a counternarcotics strategy which
prescribed programs to break what the United States has described as the “narcotics-insurgency-
corruption nexus” and help “connect the people of Afghanistan to their government.” 17
This strategic shift reflected a decision to take a “whole of government approach” in assisting the
Afghan government to wage a counterinsurgency campaign. 18 It de-emphasized eradication and
focused resources on improving the rule of law and blocking the stream of money flowing to the
Taliban and other insurgent groups. At the same time, the United States pledged to continue to
support the Afghan National Drug Strategy’s priorities to target traffickers, strengthen and
diversify legal rural livelihoods, reduce demand for illicit drugs, provide treatment for users, and
develop the capacity of Afghan institutions to implement the country’s counternarcotics strategy. 19
Counternarcotics touches on every aspect of the U.S. reconstruction effort. Implementing
agencies are supposed to incorporate counternarcotics efforts in complementary programs that
have multiple objectives. Five implementing agencies—the Department of Defense (DOD), the
Department of State (State), the U.S. Agency for International Development (USAID), the
Department of Justice (DOJ) and the Department of Treasury (Treasury)—all support aspects of the
counternarcotics effort.
Nonetheless, on my last trip to Afghanistan no one at the Embassy could convincingly explain to
me how the U.S. government counternarcotics efforts are making a meaningful impact on the
narcotics trade or how they will have a significant impact after the 2014 transition. That is
troubling, given the severity of the drug crisis, the well-documented link between opiates and the
insurgency, and the potential of the drug trade to undermine the overarching U.S. goal of
preventing terrorist groups from securing sanctuaries in Afghanistan. In addition, I was astonished
to find that the counternarcotics effort does not seem to be a top priority during this critical
transition period and beyond.


Combating Narcotics in Afghanistan is Not a High Priority
Although DOD has a post-2014 counternarcotics strategy, international officials, law enforcement
agencies, and analysts who have been involved in the narcotics effort in Afghanistan for several
years all have told me that they are very worried that the United States and its coalition partners
are not sufficiently focused on counternarcotics. The latest UNODC report reflected this concern
and warned “If the drug problem is not taken more seriously by aid, development and security

16United Nations Office on Drugs and Crime (UNODC), Afghanistan Opium Survey 2013, Summary Findings,
November 2013, p 5.
17   Department of State, U.S. Counternarcotics Strategy for Afghanistan, March 2010.
18   Department of State, U.S. Counternarcotics Strategy for Afghanistan, March 2010.
19   Department of State, U.S. Counternarcotics Strategy for Afghanistan, March 2010.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                              Page 6
actors, the virus of opium will further reduce the resistance of its host, already suffering from
dangerously low immune levels due to fragmentation, conflict, patronage, corruption and
impunity.” The report concluded, “What is needed is an integrated, comprehensive response to
the drug problem, embedded in a long-term security, development and institution-building
agenda.” 20
A recent report from the Afghanistan Research and Evaluation Unit, an independent research
institution based in Kabul, echoed concerns that tackling the illicit opium economy is not a high
priority. “Policymakers seem to have lost all appetite for talking about the production and trade of
opium in Afghanistan,” the authors wrote, noting that “recent declarations make no mention of
either the likely increase in drug production in Afghanistan post-2014, or the impact it will have on
the political economy of the country. In fact, in western capitals there is almost an allergic reaction
to the acronym CN [counternarcotics] with senior policymakers often avoiding the subject
entirely.” 21 These concerns were confirmed in subsequent conversations I had with senior UNODC
officials.
The latest U.S. strategy documents support the view that combating narcotics in Afghanistan is no
longer a top priority. For example, the new U.S. Civil-Military Strategic Framework for Afghanistan,
which articulates the “vision for pursuing U.S. national goals in Afghanistan,” barely mentions
counternarcotics. It notes that the U.S. counternarcotics strategy for 2010 informs the framework,
but for the first time since the U.S. government began outlining its reconstruction goals, it did not
include counternarcotics as a major crosscutting focus area. 22 The latest DOD Report on Progress
toward Security and Stability in Afghanistan refers to a counternarcotics strategy but states that
as the drawdown proceeds “drugs-nexus targets have a lower priority.” 23
The reduced emphasis on counternarcotics is also reflected in the Tokyo Mutual Accountability
Framework, which outlines the steps the Afghan government must take to ensure continued
international development assistance. The international community did not make sustained
reduction in opium a key indicator of progress. Instead, the framework includes language on the
need for “strengthening counter-narcotics efforts” but makes no mention of measuring the effect
of these efforts. 24 This is surprising since the presence of significant opium cultivation can be
observed through remote methods and serves as a proxy for harder to observe indicators,
including corruption and weak rule of law that are indicators in the framework.
I am particularly concerned that as the U.S. Embassy “right sizes” itself—mirroring on a smaller
scale the U.S. military drawdown—law enforcement components are losing critical manpower at
precisely the time that poppy cultivation and drug trafficking is expanding.


Law Enforcement Reductions Could Jeopardize Counternarcotics Efforts
SIGAR is very concerned that the civilian drawdown does not reflect a considered analysis of the
personnel the United States needs to have in Afghanistan to mount an effective counternarcotics
20United Nations Office on Drugs and Crime (UNODC), Afghanistan Opium Survey 2013, Summary findings,
November 2013.
21 David Mansfield and Paul Fishstein, Afghanistan Research and Evaluation Unit, Eyes Wide Shut: Counter-Narcotics
in Transition, September 2013.
22 U.S.   Civil-Military Framework for Afghanistan, Kabul, August 2013.
23   Department of Defense, Report on Progress Toward Security and Stability in Afghanistan, November 2013.
24United Nations, Letter dated 9 July 2012 from the representatives of Afghanistan and Japan to the United Nations
addressed to the Secretary-General, 7/12/2012, and p 11.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                                    Page 7
effort. On my last two trips to Afghanistan, I met with a broad range of current and former law
enforcement officials charged with supporting Afghan efforts to stand up the institutions they
need to identify and build cases against traffickers, arrest and prosecute drug dealers, interdict
precursor chemicals needed to refine opium, track the money flows and deny insurgents access
to illicit funds. These officials uniformly expressed concern that the drawdown of civilian law
enforcement jeopardizes the counternarcotics effort because these agencies are playing the
critical role of training and supporting the Afghan law enforcement and legal institutions
responsible for combating narcotics. The United States must continue to nurture these fledgling
Afghan agencies that offer the best long term hope of any success against the narcotics trade.
The Drug Enforcement Administration (DEA) has played a key role in training and mentoring
elements of the Counter Narcotics Police of Afghanistan (CNPA), developing critical intelligence on
counternarcotics, and spearheading interdiction operations. It is mentoring two specialized units
within the CNPA—the National Interdiction Unit (NIU) and the Sensitive Investigative Unit (SIU).
Established to conduct interdiction operations and target major trafficking organizations, these
units have had some successes. According to the DEA, the CNPA led 2,490 operations during the
first nine months of last year. These operations, generally conducted with DEA and military
support, resulted in 2,258 arrests, 55 drug labs destroyed, and over 121 metric tons of drugs
seized. 25 However, as the DOD noted in its latest report, overall counternarcotics interdiction
efforts have not significantly reduced insurgent income from the narcotics trade. Moreover, DOD
reported, “the current drawdown of U.S. and coalition military forces has affected the ability of
U.S. and international law enforcement personnel to conduct operations throughout Afghanistan. 26
The DEA has already had to cut its presence by nearly 50%. Reliable sources have told me and my
staff that State and DEA are negotiating further reductions, which could significantly diminish the
DEA’s ability to perform these crucial missions. The Department of Homeland Security (DHS) has
also played an important counternarcotics role in addition to helping establish border controls,
increasing revenue collection, and improving rule of law. The principle investigative arm of DHS—
U.S. Immigration and Customs Enforcement (ICE)—partners with Afghan agencies that are key to
the counternarcotics effort. These include the Afghan Ministry of Interior Criminal Investigations
Department, the Afghan Border Police Criminal Investigations Department, the Ministry of Finance
Afghan Customs Department, and the Afghanistan Central Bank’s Financial Transactions and
Reports Analysis Center of Afghanistan. ICE also mentored an Afghan team that goes after money
launderers, including drug traffickers. Despite the important work that DHS and ICE have been
doing, officials told me that they expect their numbers to be reduced by half after 2014. These
reductions will impact both interdiction efforts at the borders and money laundering
investigations.
The law enforcement drawdown is impacting interagency task forces that were established to
achieve one of the U.S. government’s primary goals since 2009: disrupt the ‘narcotics-insurgency-
corruption nexus.” For example, in 2009 the U.S. government created the Afghanistan Threat
Finance Cell (ATFC), an interagency fusion cell tasked with identifying and disrupting financial
networks serving terrorist and criminal interests. Composed of specialists from the DEA, DOD, and
Treasury, the ATFC concentrated on unraveling key financial networks controlled or used by the
Taliban, corrupt public officials, narcotics traffickers, and other criminal elements.
Even though the ATFC played a key role in securing international sanctions against individuals and
companies involved in money laundering for the Taliban and other insurgent groups, various

25   DEA response to SIGAR request for information, November 2013.
26   Department of Defense, Report on Progress Toward Security and Stability in Afghanistan, November 2013.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                                    Page 8
departments and agencies have either pulled personnel from the ATFC or are planning to do so.
Over the last year, the ATFC has gone from having over 50 personnel to about 30 personnel. Only
a few of the remaining staff are law enforcement agents or subject matter experts. These
reductions have significantly impaired the ATFC’s counter-threat finance capabilities during this
critical juncture. A number of current and former ATFC members have told me that it is now
impossible to revitalize this task force that has been so critical in combating narcotics trafficking.


SIGAR’s Counternarcotics Work
SIGAR has either completed or has ongoing audit and investigative work that touches on a
number of programs related to the counternarcotics efforts.
This work, which is described below, coupled with the sobering assessments of poppy cultivation
and opium production, raises serious questions about the efficacy of U.S.-funded counternarcotics
programs. To address these questions, SIGAR is planning to conduct a comprehensive audit of the
U.S. counternarcotics effort to determine how U.S. funds have been spent, assess the degree to
which U.S.-funded counternarcotics programs have achieved their intended purposes, and
examine the extent to which the counternarcotics effort has been integrated into a cohesive
strategy to achieve U.S. reconstruction objectives.
SIGAR has found that U.S. programs critical to the counternarcotics effort—such as building the
capacity of the Special Mission Wing (SMW) or establishing special justice centers—have made
limited progress and may not be sustainable. Moreover, we recently reported that the United
States does not have a comprehensive anti-corruption strategy even though Afghanistan is
universally recognized as one of the most corrupt countries in the world. The narcotics trade is
fueling that corruption.
Building Afghan Capacity—the Case of the Afghan Special Mission Wing
DOD, State, and DEA are all funding programs intended to build accountable, effective,
sustainable, and self-reliant Afghan counternarcotics security forces. Our audit report of the SMW
highlighted the serious challenges DOD faces in standing up one of these units which is supposed
to provide critical air support for counternarcotics and counterterrorism missions in Afghanistan.
At the time of our audit, DOD had obligated more than $900 million to establish the SMW. In
addition to nearly $122 million to support and mentor the SMW, DOD has awarded two contracts
totaling approximately $771.8 million to purchase 48 new aircraft for the SMW, including 18 fixed
wing aircraft and 30 rotary wing aircraft. DOD told us it also intended to provide $109 million per
year over the next several years for oversight, maintenance, training, and logistics support. 27
We found that the SMW lacked the manpower and expertise to operate and maintain its existing
fleet of 30 aging Mi-17 helicopters, not including the planned addition of 48 new fixed wing
planes and helicopters. 28 Our audit identified the following serious issues:
     •   The SMW had less than one-quarter of the 806 personnel—pilots, flight engineers, mechanics, and
         security staff—needed to reach full operational capacity.
     •   Recruiting challenges slowed the growth of the SMW.


27SIGAR Audit 13-13, Afghan Special Mission Wing: DOD Moving Forward with $771.8 Million Purchase of Aircraft
that the Afghans Cannot Operate and Maintain, June 2013.
28SIGAR Audit 13-13, Afghan Special Mission Wing: DOD Moving Forward with $771.8 Million Purchase of Aircraft
that the Afghans Cannot Operate and Maintain, June 2013.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                                 Page 9
     •   Only 7 of the 47 pilots assigned to the SMW were qualified to fly with night vision goggles, a
         necessary skill for executing most counterterrorism missions.
     •   DOD contractors were performing about 50 percent of the maintenance and repair services for the
         existing fleet and 70 percent of the critical maintenance and logistics management, as well as
         procurement of spare parts materiel.
     •   DOD had not developed a plan for transferring maintenance and logistics management functions to
         the Afghans. The Afghan Ministry of Defense (MOD) and the Afghan Ministry of Interior (MOI) had
         not come to an agreement on the command and control structure of the SMW. 29

Despite these problems, DOD is moving forward with two contracts to purchase 48 new aircraft,
including 18 fixed wing aircraft and 30 rotary wing aircraft for the SMW. SIGAR recommended that
DOD suspend purchase of the new aircraft until the MOI and MOD complete and sign their
memorandum of understanding. Although the memorandum has since been signed, it has not
been implemented.
The United States Lacks a Comprehensive Anti-corruption Strategy
Since 2010, SIGAR has been voicing concern about the lack of an anti-corruption strategy in one
of the world’s most corrupt countries. Despite the fact that the narcotics trade and corruption are
inextricably linked, we recently reported that the United States still does not have a
comprehensive strategy to guide U.S. anti-corruption activities.
In 2012, the U.S. Embassy Kabul made an effort to coordinate the various efforts of implementing
agencies by establishing three anti-corruption working groups. These working groups coordinate
activities under the broad goals of building Afghan government institutional capacity, improving
financial regulation and public financial management, and enhancing revenue generation.
However, these groups do not measure progress against a set of established goals. We
recommended that State immediately develop and approve a comprehensive, coordinated anti-
corruption strategy. We also called on State to develop and implement a plan that identified
timelines and benchmarks for achieving anti-corruption goals. State agreed with our
recommendations.




29SIGAR Audit 13-13, Afghan Special Mission Wing: DOD Moving Forward with $771.8 Million Purchase of Aircraft
that the Afghans Cannot Operate and Maintain, June 2013.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                                Page 10
Weaknesses in Afghanistan’s Central Bank to Regulate the Banking Sector
Directly linked to and compounding the problem of corruption in Afghanistan is the fragile state of
the country’s financial sector. This month, we released a report highlighting significant limitations
within the Afghan central bank to perform its core functions, including regulating Afghanistan’s
commercial banks and other financial institutions, such as hawalas, traditional money brokers
who transfer significant sums of cash. 30 The absence of robust regulation of Afghanistan’s banks
and hawalas raises the risk that they will be used to facilitate money-laundering by the country’s
narcotics traffickers, a known problem. For example, UNODC has reported that about 80-90% of
the hawala dealers in Kandahar and Helmand are involved in money transfers related to
narcotics. 31
As we note in our report, the U.S. government and other international donors, including the World
Bank and International Monetary Fund (IMF), have terminated most, if not all, of their support for
the central bank’s financial supervision department, the unit responsible for bank licensing and
regulation. They have done so, in part, because they have reached an impasse with the Afghan
government on the steps needed to ensure that any technical assistance for the financial
supervision department would be used effectively. In the absence of active U.S. participation, and
only limited World Bank and IMF involvement, the Afghan banking sector will remain weak. Further
instability would endanger economic growth and undermine efforts to track illicit money generated
by Afghanistan’s narcotics trade.
Criminal Justice and the Counternarcotics Justice Center
The United States has also put significant effort into developing Afghanistan’s criminal justice
system, including a center to handle counternarcotics cases.
SIGAR published two audit reports in 2009 that examined the construction and administration of
the Counternarcotics Justice Center (CNJC), which was established as a centralized location for
the Afghan government to prosecute and detain narcotics offenders. 32 State’s Bureau of
International Narcotics Control and Law Enforcement (INL) paid for the CNJC’s construction. It has
also provided funding for programs that include mentoring, training, and providing advisory
services to the police, prosecutors, and judges of the Criminal Justice Task Force who work at the
CNJC. SIGAR’s first audit found that insufficient funding and inadequate utilities delayed
construction for three years. Moreover, the CNJC’s detention facilities, which opened in May 2009,
reached capacity within three months, forcing the center to send narcotics-related offenders to
other locations.
SIGAR’s second report alerted U.S. officials that the CNJC’s detention facility was not being used
for high profile drug traffickers as intended. Rather, the cells were being occupied by low-profile
detainees. SIGAR also noted that, at the time, the CNJC did not have the procedures in place to
handle a high case load. 33


30SIGAR Audit 14-16-AR, Afghanistan’s Banking Sector: The Central Bank’s Capacity to Regulate Commercial Banks
Remains Weak, January 8, 2014.
31UNODC, Afghanistan’s Drug Industry Book: Structure, Functioning, Dynamics and Implications for Counter-
Narcotics Policy.
32 SIGAR Audit 09-04, Actions Needed to Resolve Construction Delays at the Counternarcotics Justice Center, August
27, 2009; SIGAR Audit 09-7, Documenting Detention Procedures Will Help Ensure Counter-Narcotics Justice Center is
Utilized as Intended, September 30, 2009.
33SIGAR Audit 09-7, Documenting Detention Procedures Will Help Ensure Counter-Narcotics Justice Center is Utilized
as Intended, September 30, 2009.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                                  Page 11
The CNJC has made some headway toward convicting more senior Afghan officials. For example,
as SIGAR reported in its latest quarterly report to Congress, the Nimroz Provincial Chief of Police,
General Mohammad Kabir Andarabi, was arrested for heroin and opium trafficking. At the end of
September, the CNJC Primary Court issued a guilty verdict on one count of drug-related corruption
and sentenced General Andarabi to ten years in prison. 34 However, these high-profile cases
remain rare. Law enforcement officials tell SIGAR that Afghan authorities lack the political will to
effectively prosecute senior officials.
Interdiction—the Counter Narcotics Police of Afghanistan (CNPA)
The United States has placed priority on developing the CNPA, an Afghan force dedicated to
combating the drug trade. Because the CNPA is a vital component of the entire counternarcotics
effort, SIGAR recently announced an audit of the U.S. effort to build the CNPA and particularly its
provincial units. This audit will evaluate the extent to which development and capacity-building of
the CNPA’s provincial units are based on a comprehensive interagency plan; facilities constructed
for CNPA provincial units are being used as intended; and U.S. government assistance has
contributed to building sustainable and capable provincial unit forces.
Established in 2003, the CNPA had an assigned strength of 2,759 personnel at the end of
October this year. 35 Since 2006, DOD and State’s Bureau of International Narcotics Control and
Law Enforcement Affairs (INL) have provided about $900 million to train, equip, mentor, house,
and sustain the CNPA. 36
DOD has told SIGAR that it expects the ability of the CNPA and other Afghan counternarcotics
agencies to diminish as coalition forces draw down. DOD pointed out that the withdrawal is likely
to have the biggest impact on the two provinces with the most poppy cultivation—Helmand and
Kandahar. These areas have more insurgents and more entrenched narcotics networks. The DEA,
which has been mentoring the CNPA, is closing a number of forward operating locations and
reducing its footprint in others. The forward operating locations are being transitioned to the
CNPA.
Without military support for security, intelligence, medical evacuation, and tactical air control for
high-risk operations, DEA will have little ability to extend its operations beyond Kabul.37 Since DEA
has augmented CNPA capabilities throughout Afghanistan, the pullback could have a serious
negative impact on the CNPA’s ability to do its job.


Alternative Livelihoods
The U.S. government has emphasized that alternative livelihood programs are just as critical to
the counternarcotics effort as developing Afghanistan’s law enforcement agencies and criminal
justice system. DOD and USAID have both supported rural development programs to wean
farmers from dependence on poppy cultivation by increasing access to alternative livelihoods.
USAID has supported the largest of these programs through the Economic Support Fund (ESF).
Since 2002, Congress has provided nearly $17 billion for the ESF. Our audit reviewing the entire
counternarcotics effort will take a very close look at the extent to which USAID programs have
helped farmers transition out of opium poppy cultivation.

34   SIGAR Quarterly Report to Congress, October 30, 2013.
35   SIGAR Quarterly Report to Congress, October 30, 2013.
36   SIGAR Quarterly Report to Congress, July 30, 2013.
37   SIGAR Quarterly Report to Congress, October 30, 2013.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                       Page 12
During my recent trip to Afghanistan, the U.S. Embassy, together with the Afghan government,
launched the new Kandahar Food Zone project. This is an Afghan-led initiative to bring several
efforts—eradication, drug demand reduction, alternative livelihoods, and public information—
together in one program at a time when opium cultivation and production is expanding in the
province. Since 2008, the number of hectares under poppy cultivation has doubled in Kandahar,
making it Afghanistan’s second largest opium producer. 38 U.S. officials told me the Kandahar Food
Zone was modeled after the Helmand Food Zone.
Analysts who have been studying alternative livelihood programs tell me that the Helmand Food
Zone provides an interesting case study on how a multi-pronged, concerted security and
counternarcotics effort impacted poppy cultivation. Funded by the United Kingdom with support
from the United States, the Helmand program included the distribution of heavily subsidized
wheat seeds in combination with some eradication and a public awareness campaign in the
province’s agricultural heartland. From 2008 to 2011, poppy cultivation in Helmand as a whole
steadily declined from 103,590 hectares to 63,307 hectares. Experts, who have studied the role
of opium in rural Afghanistan, say that the Helmand program benefitted from the robust presence
of coalition forces during this period, as well as significant development investments by the British
and U.S. governments. These investments included support for wider economic growth and the
development of the Afghan security forces. 39
Since 2012, the trend has reversed dramatically. The total area under poppy cultivation in
Helmand has increased 34%. Even more alarming, the area under poppy cultivation within the
Food Zone itself has increased by 50%, from 24,241 hectares in 2012 to 36,244 hectares in
2013 and accounts for about a fifth of the Food Zone’s total agricultural area. 40 If the Helmand
Food Zone was its own province in 2012, it would have been the fourth largest cultivator of opium
by number of hectares under cultivation.
Analysts also point out that, although the Helmand program reduced poppy cultivation in the most
fertile area of Helmand, it had a number of unintended consequences. This included the
displacement of the sharecroppers who once worked poppy fields in the Food Zone area. Because
harvesting poppies is much more labor intensive than crops such as wheat, the switch to licit
crops put seasonal farm laborers out of work and they have moved north to grow poppies in
Helmand’s more remote and less productive areas that are increasingly beyond the reach of the
Afghan government. 41
The Helmand experience raises an important question as we look beyond 2014. Can this
province—a central focus of the entire U.S. counterinsurgency and reconstruction strategy—survive
the withdrawal of coalition forces and the corresponding reduction in international military and
assistance spending without producing more opium? Or will Helmand, the largest producer of
opium, become a province governed by the very “narcotics-insurgency-corruption nexus” that the
United States and its allies have shed so much blood and spent so much treasure to combat?
There is much that needs to be learned from the experience in Helmand and other provinces


38United Nations Office on Drugs and Crime (UNODC), Afghanistan Opium Survey 2013, Summary findings,
November 2013, p 5.
39 David Mansfield and Paul Fishstein, Afghanistan Research and Evaluation Unit, Eyes Wide Shut: Counter-Narcotics
in Transition, September 2013.
40United Nations Office on Drugs and Crime (UNODC), Afghanistan Opium Survey 2013, Summary findings,
November 2013.
41 David Mansfield and Paul Fishstein, Afghanistan Research and Evaluation Unit, Eyes Wide Shut: Counter-Narcotics

in Transition, September 2013.

SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                                  Page 13
where reductions have been achieved not only so that the Kandahar Food Zone can build on what
has worked and what has not, but also to help shape the wider U.S.-funded rural development
effort post-2014.


Conclusion
I am very worried about the growing threat that opium production poses to Afghanistan’s future.
Poppy cultivation is expanding and the narcotics trade is undermining the overall U.S. mission to
build a stable Afghanistan able to defend itself and prevent terrorist groups from establishing
sanctuaries.
I am also very concerned that the United States has not made counternarcotics a top
reconstruction priority in this critical year of transition. Neither the United States nor the Afghan
government seems to have a clear, prioritized strategy to effectively combat the narcotics trade
today much less after 2014.
SIGAR believes that a robust law enforcement presence is an essential part of any effort to
effectively combat the narcotics trade. As the United States withdraws soldiers, it is also
drastically reducing its law enforcement presence. It is particularly important that we continue to
mentor and assist the Afghan institutions responsible for countering the narcotics trade. They are
the key to reversing cultivation and production trends that endanger every single thing we have
tried to accomplish.
SIGAR has taken a number of steps to augment our law enforcement efforts. We have increased
our focus on money laundering because we have found that networks that move narco-dollars are
also moving money gained through fraud, theft, and corruption. Protecting the U.S. reconstruction
investment in Afghanistan requires making sure that we can follow the money. In addition to hiring
a money-laundering expert who formerly served in the ATFC, we are investing in information
technology to enable our agents to follow the tortuous money trails leading into and out of
Afghanistan. We have also hired a former senior Department of Justice official to maintain law
enforcement relationships in Afghanistan and help bridge new relationships to support
counternarcotics and other criminal investigations.
The people I spoke with in Afghanistan in my last few trips talked about two possible outcomes
following the 2014 transition in Afghanistan: a successful modern state, or an insurgent state.
However, there is a third possibility: a narco-criminal state. Absent effective counternarcotics
programs and Afghan political will to seriously tackle this grave problem, that third outcome may
become a reality.
That concludes my statement, Madam Chairman. I welcome your questions and observations.




SIGAR-14-21-TY/Future U.S. Counternarcotics Efforts in Afghanistan                         Page 14
